                                                    SENSITIVE BUT UNCLASSIFIED



                                              United States Department of State
                                           and the Broadcasting Board of Governors
                                                  Office of Inspector General
Office of Inspector General

                                                 Office of Inspections

                                               Inspection of
                                     Embassy Prague, the Czech Republic


                                            Report Number ISP-I-12-42A, August 2012




                                                                Important Notice

                              This report is intended solely for the official use of the Department of State or the
                              Broadcasting Board of Governors, or any agency or organization receiving a copy
                              directly from the Office of Inspector General. No secondary distribution may be made,
                              in whole or in part, outside the Department of State or the Broadcasting Board of
                              Governors, by them or by other agencies of organizations, without prior authorization
                              by the Inspector General. Public availability of the document will be determined by the
                              Inspector General under the U.S. Code, 5 U.S.C. 552. Improper disclosure of this report
                              may result in criminal, civil, or administrative penalties.




                                                    SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED


                    PURPOSE, SCOPE, AND METHODOLOGY
                           OF THE INSPECTION

        This inspection was conducted in accordance with the Quality Standards for Inspection
and Evaluation, as issued in 2011 by the Council of Inspectors General on Integrity and
Efficiency, and the Inspector’s Handbook, as issued by the Office of Inspector General (OIG) for
the U.S. Department of State (Department) and the Broadcasting Board of Governors (BBG).

PURPOSE AND SCOPE

       The Office of Inspections provides the Secretary of State, the Chairman of the BBG, and
Congress with systematic and independent evaluations of the operations of the Department and
the BBG. Inspections cover three broad areas, consistent with Section 209 of the Foreign
Service Act of 1980:

       •   Policy Implementation: whether policy goals and objectives are being effectively
           achieved; whether U.S. interests are being accurately and effectively represented; and
           whether all elements of an office or mission are being adequately coordinated.

       •   Resource Management: whether resources are being used and managed with
           maximum efficiency, effectiveness, and economy and whether financial transactions
           and accounts are properly conducted, maintained, and reported.

       •   Management Controls: whether the administration of activities and operations meets
           the requirements of applicable laws and regulations; whether internal management
           controls have been instituted to ensure quality of performance and reduce the
           likelihood of mismanagement; whether instance of fraud, waste, or abuse exist; and
           whether adequate steps for detection, correction, and prevention have been taken.

METHODOLOGY

In conducting this inspection, the inspectors: reviewed pertinent records; as appropriate, circulated,
reviewed, and compiled the results of survey instruments; conducted on-site interviews; and
reviewed the substance of the report and its findings and recommendations with offices,
individuals, organizations, and activities affected by this review.




                                           i
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED



                                                        United States Department of State
                                                        and the Broadcasting Board of Governors

                                                        Office of Inspector General




                                           PREFACE


       This report was prepared by the Office of Inspector General (OIG) pursuant to the
Inspector General Act of 1978, as amended, and Section 209 of the Foreign Service Act of 1980,
as amended. It is one of a series of audit, inspection, investigative, and special reports prepared
by OIG periodically as part of its responsibility to promote effective management,
accountability, and positive change in the Department of State and the Broadcasting Board of
Governors.

        This report is the result of an assessment of the strengths and weaknesses of the office,
post, or function under review. It is based on interviews with employees and officials of relevant
agencies and institutions, direct observation, and a review of applicable documents.

       The recommendations therein have been developed on the basis of the best knowledge
available to the OIG and, as appropriate, have been discussed in draft with those responsible for
implementation. It is my hope that these recommendations will result in more effective, efficient,
and/or economical operations.

       I express my appreciation to all of those who contributed to the preparation of this report.




                                              Harold W. Geisel
                                              Deputy Inspector General




                                           ii
                              SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED


                               Table of Contents

Key Judgments                                           1
Context                                                 2
Executive Direction                                     3
Policy and Program Implementation                       5
  Political/Economic Section                            5
  Public Affairs Section                                6
  Consular Section                                     10
Resource Management                                    14
  Management Operations                                14
  Financial Management                                 15
  Human Resources                                      16
  General Services                                     18
  Facilities Management                                20
  Information Management                               23
Quality of Life                                        24
  Community Liaison Office                             24
  Medical Unit                                         24
  (b)(5)(b)(6)                                         24
  American Embassy Prague Community Association        25
Management Controls                                    26
  Consular Management Controls                         26
  American Embassy Prague Community Association        26
List of Recommendations                                28
List of Informal Recommendations                       30
Principal Officials                                    32
Abbreviations                                          33




                                      iii
                          SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED


Key Judgments
   •   The Ambassador has laid out an ambitious and energetic agenda centered on defense
       cooperation, commercial advocacy, and shared democratic values. He has been taking
       promising steps to be equally successful in tapping the talents of the embassy’s staff more
       effectively.

   •   The mission’s core reporting, advocacy, and public diplomacy operations function well.
       At the country team level, strong internal coordination and communication reflect
       positively on the deputy chief of mission’s leadership and the professionalism of embassy
       section chiefs.

   •   Staffing is top-heavy in some sections. Opportunities exist to save substantial funds by
       contracting out the local guard force, reducing American staffing levels, reclassifying
       positions to reflect changed workloads and responsibilities, and reducing the number of
       Czech language-designated positions.

   •   With the implementation of the Visa Waiver Program in 2008, demand for visa services
       has declined. Despite staffing reductions associated with implementation of this program,
       the consular section provides efficient service to the public.

   •   The mission operates in a historic 400-year-old chancery that is a symbolic landmark but
       also the source of security, functionality, and accessibility obstacles that hinder
       operations essential for a modern diplomatic facility. Absent the realistic prospect of a
       new embassy compound, a long-term approach to addressing these problems is essential.

   •   The embassy’s management operations are efficient and well regarded by embassy
       customers.



The inspection took place in Washington, DC, between April 12 and May 1, 2012, and in
Prague, the Czech Republic, between May 21 and June 11, 2012. ( b) (6)




                                          1
                             SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED


Context
        Nearly a century after Woodrow Wilson made the independence of Czechoslovakia an
objective of American foreign policy, the Czech Republic has emerged from its 1989 Velvet
Revolution with strong democratic institutions, a vibrant, export-oriented free market economy,
and full membership in the security and political institutions of the West.

        The Czech Republic has moved to cement its status as an integral member of the North
Atlantic Treaty Organization (NATO) and a united Europe. President Obama chose to deliver his
first major overseas foreign policy address in Prague to highlight a mutual commitment to the
NATO alliance and shared democratic values. The Czechs are staunch allies of the United States
and unwavering defenders of fundamental human rights and democracy. The Czech economy
suffered mildly during the recent European economic crisis but has maintained a healthy trade
surplus. The breathtaking pace of change of the past 20 years has slowed; the Czech Republic is
now a mature and prosperous democracy with substantial multilateral responsibilities. The Czech
and American Governments are in an ongoing process to adjust to the Czech Republic’s growing
international role.

         The mission’s policy priorities are to enhance defense and strategic cooperation, increase
commercial and economic ties, and promote shared democratic values. Czech contributions in
the defense sphere include sending troops to Afghanistan and Iraq and providing expertise in
specialties such as rotary-wing aviation and chemical and biological weapons defense. With
respect to commercial advocacy, the embassy is actively supporting a bid by an American
company to provide up to five reactors for the Temelin nuclear power plant expansion, a project
that is currently one of the largest public tenders in Europe. Corruption scandals have
undermined the confidence of the Czech people in their government and sullied its reputation in
the European Union and beyond. The United States works with the Czech Government, society,
and people to promote good governance and anticorruption programs and to introduce
international transparency standards, notably in the areas of public procurement and defense
contracting.

       Embassy staffing consists of 74 U.S. direct hires and 163 locally employed (LE) staff
members, including personnel from the Departments of Agriculture, State, Defense, Commerce,
and Justice. Since the last inspection, the Czech Republic joined the Visa Waiver Program,
which allowed for a reduction in consular staffing levels commensurate with a declining visa
workload. Operating budgets for all agencies at the mission totaled $20.2 million in FY 2011.




                                           2
                              SENSITIVE BUT UNCLASSIFIED
                                    SENSITIVE BUT UNCLASSIFIED


Executive Direction
        Embassy Prague is a medium-sized mission in the heart of Europe. The Ambassador
arrived in January 2011 after the President made a recess appointment. 1 At that time, the
Ambassador could not be certain of winning Senate confirmation upon renomination, and he
organized his work based on the assumption that he might serve in Prague only until the end of
the year. He was determined to make up for the previous 2 years without an Ambassador.

        For the 2 years prior to the Ambassador’s arrival, no confirmed chief of mission was in
place, and relations between the United States and the Czech Republic suffered several bumps.
An unanticipated and abruptly announced change in U.S. missile defense plans was a shock. The
“reset” in U.S. relations with Russia surprised many governments in Central and Eastern Europe,
and the Czechs took the lead to organize senior leaders in these countries to write the President
and express feelings of neglect. Moreover, some Czechs perceived that the absence of a
confirmed Ambassador signaled a lessening of U.S. interest in the relationship. Overall, the
historically positive relationship had a downward trajectory.

        On arrival, the Ambassador announced three pillars to give the mission a strategic policy
focus and revitalize the relationship: defense and security issues; economic-commercial issues;
and shared values, including human rights, good governance, and anticorruption. In the
Ambassador’s first months in Prague, the mission organized much of its work, and its most
ambitious projects, within these three pillars. Through intense focus and energy, the mission
notched significant achievements, including concurrence on Afghanistan policy and conclusion
of a reciprocal defense procurement agreement under the first pillar; advocacy for a U.S
company’s bid under the economic-commercial pillar; and the holding in Prague of a first-ever
World Forum on Governance jointly sponsored by the American Enterprise Institute and
Brookings Institution under the third pillar. The Ambassador also orchestrated a White House
meeting between the Czech Prime Minister and the President in October 2011 where the prime
minister himself cited the three pillars as organizing elements to advance the bilateral
relationship.

        The Ambassador takes great pride in being entrepreneurial. He continually generates new
ideas and encourages mission staff, particularly in the political-economic and public affairs
sections, to embrace his enthusiasm. In the first year, the results included many solid
achievements but at a pace the Ambassador acknowledged to the inspectors was unsustainable
for the long term.

       It fell to the most senior career Department official in the embassy, the deputy chief of
mission (DCM), to organize and encourage mission staff to implement the Ambassador’s ideas
while also ensuring that the Ambassador understood when ideas were either unrealistic or
required tradeoffs given the size of the mission staff and other resource constraints. The DCM


1
  A recess appointment is the appointment, by the President of the United States, of a senior federal official while
the U.S. Senate is in recess. To remain in effect, a recess appointment must be approved by the end of the next
session of Congress, or the position to which the recess appointment was made becomes vacant.

                                                 3
                                    SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

won the respect of the Ambassador and other mission staff for his balancing of ways and means
in pursuit of objectives the Ambassador generated under the three pillars.

        At the end of 2011, the Ambassador was confirmed by the Senate and started 2012
intending to steady the pace of activities and projects. He still, however, maintains an active
agenda. He wants to sustain advances in the relationship and continue to give Czechs the benefit
of his extensive network of distinguished Americans, many of whom came to Prague at their
own expense and participated in embassy-organized programs at the Ambassador’s urging. The
Ambassador continues to be entrepreneurial.

        Based on his professional expertise outside government and service in the White House
as Special Counsel to the President for Ethics and Government Reform, the Ambassador
accepted a number of invitations during 2011 to participate in conferences or speak to audiences
outside the Czech Republic on ethics and governance issues. Several of these came from the
Department itself. Given his own almost inexhaustible reservoir of energy and ideas, the
Ambassador managed to balance his commitments inside and outside the Czech Republic.
However, his absence for such events and his quest for confirmation at the end of 2011 reduced
his presence in Prague. With encouragement from the Bureau of European and Eurasian Affairs,
and because he was confirmed by the Senate, he has cut back on his outside speaking
engagements and external travel in 2012.

        An active agenda, no matter how focused under the three pillars, has created challenges
for mission staff and the Ambassador to manage his schedule. There were occasions when, for
example, the Ambassador discovered he had several events, including ones he personally put on
the calendar that overlapped or left him insufficient time for travel. The Ambassador, DCM, and
other staff have tried several strategies intended to gain better control over his schedule and are
making progress. These included a weekly meeting instituted shortly before the inspection that
included the Ambassador, DCM, and staff from the political/economic and public affairs
sections. During the inspection, the Ambassador supplemented the weekly meeting by also
adding a short, daily stand-up event. Participants in this meeting see the latest iteration as
promising. They have also now delegated sole responsibility to the Ambassador’s office
management specialist to put events on the calendar and started to include her in their daily
gatherings. Managing the Ambassador’s schedule is still a work in progress, however.

Recommendation 1: Embassy Prague should develop a calendar process for the chief of
mission that captures, organizes, and provides limits on his schedule of events. (Action: Embassy
Prague)




                                           4
                              SENSITIVE BUT UNCLASSIFIED
                                SENSITIVE BUT UNCLASSIFIED


Policy and Program Implementation
Political/Economic Section

        The political/economic section is adequately staffed. The section satisfies Washington
reporting demands and respects reporting deadlines. The section also plays an active role in
promoting U.S. exports to the Czech Republic, which reached $2.3 billion in 2010. The embassy
focuses its commercial advocacy efforts to support a bid by an American company to build
nuclear reactors at the Temelin site, a project that is one of the largest public tenders in Europe.

         Inefficiencies in the section are most frequently the result of how the section interacts
with the Ambassador’s office. The Ambassador leans heavily on the political/economic section
to support his outreach efforts, staff his official calls, provide control officers for official visitors,
and serve as a sounding board for ideas. As a result, the officers have paid less attention to
creating new contacts and seeking new reporting opportunities. Responding to the Ambassador’s
priorities has also affected their ability to carry out routine reporting and program
responsibilities.

        The section drafts briefing memos and talking points to prepare the Ambassador for his
scheduled meetings each day. Currently, the DCM’s office management specialist is
implementing a central system to track correspondence to ensure proper, timely clearance of key
documents. The OIG team encouraged the political/economic section to use this system to track
its documents through the clearance process.

Political/Economic Position Grades

        The current grade structure of the political/economic section is a relic of the early days of
post-1989 Czech politics when internal political reporting from the new Eastern Europe was in
high demand. The section is top-heavy and has more senior-graded American positions than
current needs warrant. The United States and the Czech Republic now address many issues in
multilateral venues such as NATO and the Organization for Security and Cooperation in Europe.
The inspection team found no continued need for a third mid-level officer in the reporting
section. An entry-level officer position is more appropriate.

Recommendation 2: The Bureau of European and Eurasian Affairs, in coordination with the
Bureau of Human Resources, should reclassify political officer position 10463022 as an entry-
level position. (Action: EUR, in coordination with DGHR)

Meeting Schedules

       The physical design of the chancery makes it difficult for the section’s LE staff members
to meet regularly with their American colleagues. LE staff members and American officers
seldom come together except for formal staff meetings. Those meetings are little more than a
rehashing of the week’s country team meeting agenda. The exchange of essential operational
information does not take place. This physical separation can be addressed through more wide-


                                             5
                                SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

ranging and frequent meetings. The section did successfully hold two offsite meetings meant to
build closer relationships and share information. This effort could be strengthened.

       Informal Recommendation 1: Embassy Prague should restructure political/economic
       staff meetings to serve as tasking meetings and venues for exchange of action-oriented
       information.

Travel and Representational Plans

        The embassy does not make full use of travel and representational funds to support
strategic objectives. Embassy priorities often change rapidly. The Ambassador is always alert to
opportunities to promote U.S. policies. Many of these opportunities arise on short notice and
require a quick response. As a result, the Ambassador’s schedule and the schedule of officers
around him can change without warning. Allowing for that spontaneity has impeded the section
from using representational events and travel to create relationships and report on issues inside
and outside of Prague. This is a key function of a political/economic section.

       Informal Recommendation 2: Embassy Prague should develop and implement annual
       reporting, travel, and representation plans.

Public Affairs Section

        The public affairs section (PAS) earns high marks from the Ambassador and from section
chiefs and agency heads. They describe PAS staff as professional, collaborative, and willing to
work across institutional boundaries as well as across the physical ones posed by the structure of
the embassy building. PAS itself operates out of three different offices. The public affairs officer,
the press unit, and the assistant cultural affairs officer work on one wing of the chancery, while
the cultural affairs officer and his staff work on a different floor in the same wing. The
American Center, overseen by PAS, is in yet another location, a short distance away.

        Informal meetings and discussions between press and cultural affairs unit chiefs and their
staff are frequent. Meetings between members of both units and the public affairs officer, who
arrived in September 2011, are rare, which may be one reason for an impression among LE staff
that the public affairs officer is not as engaged as his predecessors. The OIG team counseled the
public affairs officer on steps he could take to change that perception.

Cultural and Educational Programs

        A talented cultural affairs officer leads the unit. Together, he and his staff run a speakers
program that ably uses Washington funding and supplements these funds with “local” talent:
embassy officers, American and Czech Fulbright scholars, and returned Czech participants in the
International Visitor Leadership Program, all of whom speak at PAS-arranged programs at the
American Center and other venues. PAS also regularly programs many of the high-profile
friends of the Ambassador who visit Prague at their own expense, by arranging interviews or
speaking engagements for those who can advance the mission’s agenda.


                                           6
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

       Prague is a cultural capital that attracts a steady influx of American artists, so PAS rarely
requests arts funding from the Bureau of Educational and Cultural Affairs. Instead, it provides
small grants to local organizations to bring in American performers in return for the
organizations making those artists available for master classes at schools, universities, or other
performing arts institutions.

        The cultural affairs unit also ably manages the mission’s International Visitor Leadership
Program. PAS sponsors approximately 25 participants annually and takes advantage of incentive
and special programs to maximize the number of participants. Under the guidance of the cultural
affairs officer, the LE staff member who oversees the program’s day-to-day operations has done
an extraordinary job of organizing Czech participants into a viable alumni association aimed at
encouraging them to share with the broader Czech public lessons learned as a result of their visits
to the United States. In FY 2011, the Bureau of Educational and Cultural Affairs’ Alumni Affairs
Division provided $30,000 for an alumni project that produced three 20-minute documentaries
on reversing stereotypes of minority groups and countering xenophobia. The documentaries were
shown at two alumni-led conferences and on Czech public television.

The Fulbright Commission

         PAS has used some of its own funds to assist the commission and expand the number of
scholarships available, particularly for the popular English Teaching Assistants Program for
which the commission annually receives over 100 requests from Czech high schools and
universities. The Fulbright budget allows for only four, but PAS provides supplementary funding
for two to three additional scholarships every year. PAS and the commission are engaged in
efforts to expand the program even further by encouraging greater cost-sharing by requesting
institutions. PAS has also used its own fund to continue a unique scholarship that allows Czech
leaders of nongovernmental organizations to intern for 3 months at an American
nongovernmental organization with a similar focus, reinforcing the mission’s efforts to promote
greater civic activism.

The American Center

        The American Center is one of the embassy’s greatest assets. The center’s focus and forte
is programming that attracts a broad spectrum of the Czech public and also engages contacts
from universities, think tanks, nongovernmental organizations, and governmental institutions.
Located close to the embassy, the American Center is an easily accessible public venue with a
conference room, small auditorium, lending library, Information Resource Center, public access
computer terminals, and hallway exhibition space. In 2011, the center hosted 134 PAS-sponsored
events and more than 100 embassy speaker programs, which reach out to youth, especially high
school students. The center’s programs include film screening, live performances, student
advising sessions, exhibits, presentations by Fulbright scholars and other exchange program
participants, and, increasingly, seminars on policy issues. The center also makes its space and
resources available to nongovernmental organizations and other institutional partners with which
the mission has shared goals and interests, thereby expanding its universe of programs at no
additional cost.


                                           7
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

        The center has much to commend it, but PAS wants to be sure that it does not confuse the
number of events or the size of the audience with a serious examination of which programs best
advance mission goals and merit the most support. As part of that effort, the cultural affairs
officer and his deputy have been examining whether current staffing fully meets the center’s
present and future needs for both programming and information outreach activities. PAS, in
cooperation with the Vienna-based information resource officer whose regional portfolio
includes Prague, is rewriting position descriptions for center staff with an eye to its future needs.
The OIG team supports this effort.

The American Corner in Brno

         In addition to the American Center in Prague, PAS supports an American Corner in Brno,
the country’s second-largest city. Established in 2005 and located in the Moravian National
Library, the Corner provides an important program platform near one of the city’s major
universities and the National Military Academy. PAS supported the American Corner with an
initial investment of about $35,000 worth of books and equipment, and the American Corner
subsequently received additional support from Washington and from PAS. In 2011, PAS closed
its only other American Center in Pilsen, which was not living up to expectations.

Press Unit and Information Outreach

        A capable information officer leads the four-person press unit. He and his team provide
excellent support to the Ambassador, who excels in interviews and meetings with media. The
information unit provides both oral and written press briefings and summaries to mission
members. LE staff members arrive early to ensure that one of them and the information officer
are ready for a morning oral briefing for the DCM and the political/economic officer. However,
the written press summary, generally a concise one-page document, goes through a number of
editors and often does not reach the desks of embassy officers until noon. Earlier delivery would
make the summary more useful.

       Informal Recommendation 3: Embassy Prague should streamline its processes to allow
       the written press summary to be delivered to all embassy recipients no later than 10 a.m.
       local time.

        An experienced LE staff member administers both the official embassy Web site and the
one run by the American Center. She updates both sites regularly with new, interesting, and
relevant postings. The sites adhere to Foreign Affairs Manual regulations on terms of use and are
registered in the Information Technology Asset Baseline.

        The embassy’s social media sites include Facebook, YouTube, Twitter, and Flickr.
Responsibility for managing them lies with a less experienced staff member in the embassy’s
cultural affairs unit, which generates much of the material for the sites. The social media site
manager updates content frequently, but does not engage regularly in the online conversations
that are a centerpiece of social media. Not all of the embassy’s social media sites promote the
other embassy sites, as is the norm elsewhere.


                                           8
                              SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED

       Informal Recommendation 4: Embassy Prague should redesign its social media sites in
       a way that links relevant sites together.

        The Ambassador’s blog presents a special issue. Though it can be accessed via the
embassy Web site, the blog is hosted on a Czech Web site regarded as the country’s most
popular for news and information. PAS placed the blog at this site in the expectation that it
would generate more hits than on the embassy Web site. However, the private Czech site
regularly contains advertising adjacent to the Ambassador’s blog. Provisions of 5 FAM 794 a.
prohibit advertising on official U.S. Government sites. There is no such prohibition on
advertising on private sites. The embassy has not requested that a disclaimer be placed on the
Ambassador’s blog to prevent confusion that might arise if readers think that the Ambassador or
the embassy endorses the products or services advertised near his blog.

       Informal Recommendation 5: Embassy Prague should post a disclaimer about
       advertising appearing near the Ambassador’s blog on the private Czech Web site.

Grants Management

        PAS has an active grants program. In FY 2011, PAS issued 119 grants with a total value
of $952,000. The larger-than-normal grants programs included a one-time allotment of $252,000
as well as several smaller infusions for other special programs. The OIG team examined a
representative grouping of grants files and found them in good order with required
documentation.

         The embassy has established an innovative grants review committee that provides
effective and transparent reviews of grants applications from nongovernmental organizations.
The OIG team believes that although the small grants committee is meeting its intended
purposes, the required American connection for public diplomacy grants is not always spelled
out as clearly as it needs to be. In some cases, the locus with American policy is not entirely
clear. A revised grant application form could document the connection to U.S. policy goals more
clearly.

       Informal Recommendation 6: Embassy Prague should revise the grants application to
       make clearer how the proposed activity accords with mission goals.

         One LE staff member is the designated grants officer’s representative for all public
diplomacy grants. As the number of grants has grown, her workload has grown proportionally.
For example, PAS processes about 50 percent more grants than it did 5 years ago, and the dollar
volume of grants has increased more than 400 percent. Given the increased emphasis for onsite
visits to grantee organizations, there is a need for other LE staff members to serve as grants
officer’s representatives, especially in areas where they have programmatic responsibilities.

       Informal Recommendation 7: Embassy Prague should provide appropriate training for
       additional locally employed staff members with grants management responsibilities.




                                          9
                             SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED


Staffing

        Staffing in PAS is appropriate, but the section is somewhat top-heavy with three senior-
level officers. The information officer, currently an FS-02 position, is a comparatively senior
position. Embassy Prague is a good training ground for mid-level officers and this position
would be a better match for a less senior officer.

Recommendation 3: The Bureau of European and Eurasian Affairs, in coordination with the
Bureau of Human Resources, should reclassify the information officer position (position
60888065). (Action: EUR, in coordination with DGHR)

Consular Section

        The consular section provides professional, efficient services to American citizens and
foreign nationals seeking consular and visa assistance. The consul general is an active member of
the country team, and the two entry-level officers have opportunities to participate in activities
outside the consular section. Morale is excellent. The visa workload declined when the Czech
Republic joined the Visa Waiver Program in 2008. Since then, the section has downsized
operations by two American and two LE positions. The section enjoys productive relations with
other sections and agencies in the mission but operates relatively independently.

Consular Space

        The consular section is divided into separate work areas for the nonimmigrant visa unit
and the American citizens services and immigrant visa units. This configuration creates (b) (5)
                                                                     limits access for physically
disabled employees and consular clients. The Consular Management Handbook (7 FAH-I H-
280) discusses physical space requirements for consular sections, which include providing
adequate access for employees and members of the public with physical disabilities, (b) (5)
                        and private space for sensitive discussions. The Bureau of Overseas
Buildings Operations (OBO) has sent consultants at least twice in recent years to review the
issue. Possible solutions discussed include a $2 million embassy accessibility project, which
would improve public access to the consular section, and a broader, $7 million chancery upgrade
project. The $2 million embassy accessibility project is tentatively planned for FY 2015, subject
to availability of funding. Providing access to consular services (b) (5)                    for
American citizens and visa applicants is one of the core functions of an embassy. The chancery,
as currently configured, is not well suited for carrying out some of these responsibilities.

Consular Office Space Consolidation

       The consular section was expanded in 2005 to provide additional office space for
operations. What is now the nonimmigrant visa unit was the entire consular section until 2005.
Given the reduction in workload and staff after implementation of the Visa Waiver Program, the
nonimmigrant visa unit office space once again should be adequate for consular operations. The
work space could be reconfigured to accommodate all staff in one area at low cost. With good
planning, the section could reorganize furniture placement to ensure adequate work and
processing space as well as line of sight. The section would need private interview space. Prague
                                         10
                             SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

is scheduled to be included in the Bureau of Consular Affairs Global Support Services contract
in 2013, which will introduce additional operational efficiencies. Combining all consular
operations into one space would (b) (5)                          enhance the section’s ability to
cover all functions with current staffing levels, enhance management controls, allow for a
reduction in the number of subcashiers, and improve overall efficiency.

Recommendation 4: Embassy Prague, in coordination with the Bureau of Overseas Buildings
Operations, should reconfigure the consular section to combine office space for nonimmigrant
visa, immigrant visa, and American citizens services operations into a single location. (Action:
Embassy Prague, in coordination with OBO)

Consular Staffing

        Since the Czech Republic joined the Visa Waiver Program, the consular chief position
has been downgraded to an FS-02. The deputy position was eliminated in 2011, and in 2010 one
entry-level officer position was converted from a consular-economic rotation to a 2-year
economic position. Of the two entry-level positions, one is a 2-year consular assignment and the
other is a rotational position (1 year in the consular section and a second year in the
political/economic section). Although the rotational position creates challenges for the consular
section in managing 1-year assignments for consular officers, it has the benefit of ensuring that
an additional officer has a consular title and recent consular experience.

Consular Systems

       The last replacement and upgrade of hardware systems was in 2008; the next one is
scheduled for December 2012. This is timely as the system requires more maintenance and
hardware upgrades to provide continuous, reliable consular services to the public. In 2013, the
Global Support Strategy will be extended to Embassy Prague. This program provides an
outsourced solution that will likely include visa information services, offsite fee collection, visa
appointment scheduling, and passport deliveries. This program is expected to have a positive
impact on the efficiency of consular operations.

American Citizens Services

        The American citizens services unit provides services efficiently and effectively, in part
because of experienced LE staff members, good local resources, and a network of contacts. The
Czech Republic, particularly Prague, is a tourist destination. The American citizens services
workload is growing and the number of American residents, tourists, students, and retirees is
steadily increasing. The large number of students and tourists has meant an increase in lost and
stolen passports and arrest cases. Retired American citizens include tourists, dual nationals who
have returned to the Czech Republic, and some 600 federal benefits recipients. Last year the
section handled 45 deaths of American citizens abroad, six of which involved complex estate and
property issues. A monthly newsletter for American citizens in the Czech Republic keeps the
unit in contact with a warden network. The unit enjoys good support from the public diplomacy
section in its public outreach activities.


                                          11
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED



After-Hours Assistance and Emergency Planning

        The consular section has drafted comprehensive guidance for embassy duty officers so
that they can provide after-hours assistance to American citizens in distress. However, the
section has not planned as thoroughly for a mass casualty event. The supply of “Go Kits,” which
could be used for out-of-office emergency assistance, has been depleted over time. The unit
would also benefit from developing a checklist of additional materials that might be needed to
respond to a mass casualty event.

       Informal Recommendation 8: Embassy Prague should prepare consular materials for a
       mass casualty emergency situation affecting American citizens in the Czech Republic.

Nonimmigrant Visas

        In FY 2011, the nonimmigrant visa unit adjudicated more than 8,600 visa applications,
which included applications from over 100 nationalities and 3,000 exchange visitor visas. The
bulk of the workload occurs from April to August when applications for summer work travel and
student visas peak. During the remaining 7 months of the year, the visa workload diminishes
from 125 nonimmigrant visa applications per day to 100 nonimmigrant visa applications per
week. Nonimmigrant visa waiting times have not exceeded nine days during past 2 years, which
is well within the parameters set under a recent Executive Order on waiting times. This year will
be the first peak season that the consular section has managed with only three officers, and the
section is carefully monitoring visa waiting times. If wait times exceed 2 weeks, the section
might need to request short-term assistance from other officers with consular titles.

Embassy Referral Program

         The embassy is not using the worldwide referral system. During the past 3 years, there
have been no cases adjudicated as embassy referrals. However, the OIG team observed several
instances of visa inquiries being passed informally, either orally or by email, to the adjudicating
officer. To their credit, the adjudicating officer and the consul general redirected the inquiries
through normal visa channels. These incidents, while few, demonstrate the need to reinstitute a
visa referral program consistent with the requirements in 9 FAM Appendix K. A well-run and
judicious visa referral system is an important tool for advancing U.S. national interests. It
facilitates the issuance of visas to foreign nationals who are key contacts and whose travel is
deemed to be clearly in the interests of the United States. Equally important, it prevents attempts
to apply inappropriate influence, or the appearance of such influence, on individual visa
adjudications.

Recommendation 5: Embassy Prague should institute procedures consistent with the
worldwide policy for a nonimmigrant visa embassy referral program. (Action: Embassy Prague)

Visas Viper

     The embassy incorporates the Visas Viper committee into the country team meeting. The
DCM or Ambassador chairs the meeting and the consular chief is the Visas Viper coordinator.
                                          12
                              SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED

The consular section submitted all but one reporting cable on time during the past 12 months.
The consular chief is aware of the importance of submitting these reports by the tenth day of
each month and has committed to do so.

Immigrant Visas

        The immigrant visa unit shares space with the American citizens services unit. The unit
handles the small caseload professionally. The immigrant visa unit has not handled any adoption
cases and has a very modest diversity visa workload. An unusual aspect of the immigrant visa
caseload is the special immigrant visa category for Radio Free Europe/Radio Liberty employees,
all of whom are third-country nationals who work in Prague.

Fraud Prevention Unit

        Fraud is not a significant workload factor in Prague. Even so, one experienced LE staff
member reviews all nonimmigrant visa applications for fraud indicators during the intake
process. A validation study performed in January 2011 looked at 1,800 summer work travel
applicants and found only three possible overstays. A second validation study performed in
February 2012 of 1,500 third-country national applicants issued in Prague revealed one
fraudulent case and a confirmed overstay rate of 0.13 percent. Given the low incidence of fraud,
the section recently began using the Enterprise Case Assessment Service to track cases referred
for fraud prevention review; they should continue to do so.




                                         13
                             SENSITIVE BUT UNCLASSIFIED
                               SENSITIVE BUT UNCLASSIFIED


Resource Management
           Agency                   U.S.     U.S. Local-        Foreign      Total     Total Funding
                                 Direct-Hire Hire Staff         National     Staff       FY 2011
                                    Staff                        Staff
Department of State
Diplomatic and Consular                    35              1           21         57       $3,440,880
Programs
ICASS                                       5              7           78         90       $5,277,900
Public Diplomacy                            4              0           17         21       $2,122,550
Diplomatic Security                         2              2           28         32       $1,088,594
Marine Security                             8              0            2         10         $180,750
Representation                              0              0            0          0          $51,300
OBO                                         2              0            0          2       $5,752,949
Broadcasting Board of                       1              0            4          5       $1,420,159
Governors
Department of Agriculture
Foreign Agricultural Service                0                            2         2          $92,872
Department of Defense
Defense Attaché Office                      8              1             1        10         $328,345
Office of Defense                           3                            3         6
Cooperation
Other                                       2              1             1         4          $261,00
Department of Justice
Federal Bureau of                           3             0              0         3
Investigation
Foreign Commercial                          1                            6         7         $468,853
Service
Totals                                     74             12          163       249       $20,225,152

Management Operations

        Management staffing is relatively lean, and the section has endured some long-term gaps
in key positions during the past 2 years. Further, the section faces operational challenges inherent
in working in a 400-year-old chancery. Despite these circumstances, the management section
provides a full range of services that meet the needs and expectations of the mission community.

        In the 2012 International Cooperative Administrative Support Services (ICASS)
customer satisfaction survey, the embassy’s average score for overall ICASS services was on par
with both the Bureau of European and Eurasian Affairs and worldwide average scores, as were
the scores for the individual management subunits. The scores on the OIG questionnaires
                                           14
                               SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED

reflected a similar degree of satisfaction, with average customer scores for overall management
section performance and customer service orientation slightly above that of other embassies that
OIG has recently inspected. Scores for the health unit, human resources, and financial
management offices were significantly higher than those of recently inspected embassies.

       The section is directed by a seasoned management counselor, who is well regarded by the
executive office and by his staff for maintaining strong communications and a positive work
environment. With entry-level officers in key positions in financial management, general
services, and human resources, the management counselor provides valuable leadership,
mentoring, and an appropriate degree of oversight.

Rightsizing

        The Department requires that a formal rightsizing study be conducted at least once every
5 years for all overseas missions to promote efficient personnel management practices. The
Office of Management Policy, Rightsizing, and Innovation issued a rightsizing report in July
2011 that acknowledged the staffing reductions Embassy Prague had made in 2007 and noted
that overall management staffing was in line with comparator embassies in the Bureau of
European and Eurasian Affairs. Since that time, Embassy Prague has made additional cuts in
management staffing, without adverse impact on the quality of support services.

Financial Management

        The financial management section is directed by an entry-level officer in her first
overseas assignment. She also serves as the human resources officer. Despite her limited tenure
with the Department, solid management skills have enabled her to provide excellent oversight of
these vital ICASS functions. She directs seven LE staff members; all have the experience and
training to perform their duties with efficiency and competence. Feedback from colleagues and
customers indicated high satisfaction with their performance.

Cashier Services

        Embassy Prague has a Class B cashier and 12 subcashiers. The financial management
officer conducted a cash count during the inspection, and no irregularities were noted. Cash
counts for the subcashiers are conducted by the respective supervisors, as required. The Class B
cashier maintains a (b) (5) advance, an amount sufficient to cover normal operating
requirements and accommodation exchange services. Department policy requires overseas
missions to employ commercial banks or automatic teller machines to provide accommodation
exchange when possible. However, the Department recently reauthorized the (b) (5) advance,
based partly on the embassy’s request to maintain in-house accommodation exchange services
and the lack of a commercially viable alternative for a low-volume location.

International Cooperative Administrative Support Services

        ICASS operates effectively at Embassy Prague, with positive dynamics between the
service provider and the serviced agencies. The ICASS council is properly constituted and the
chair rotates among the respective council members. The embassy holds ICASS meetings at
                                         15
                             SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED

regular intervals and prepares advance agendas and minutes for these meetings, which are shared
on an internal SharePoint site. The only variance from established ICASS policies is the lack of a
separate interagency budget committee, which normally consists of working-level
representatives of the service provider and serviced agencies. The purpose of this subcommittee
is to review financial targets and invoices in advance of meetings of the ICASS council.

       Informal Recommendation 9: Embassy Prague should establish an International
       Cooperative Administrative Support Services budget subcommittee that consists of
       working-level representatives from both the service provider and the serviced agencies.

Human Resources

        As noted, the officer in charge of the financial management office also supervises the
human resources office. Her staff includes two LE staff members, both with considerable
experience and training. Mission customers expressed general satisfaction with all human
resources office functions. Embassy management has doubled the number of family member
employment opportunities by converting many full-time administrative positions to part-time
positions that allow two family members to share jobs. This is a commendable practice. LE staff
members generally expressed satisfaction with human resources services, but the lack of a salary
increase since 2003 is a concern.

Language-Designated Positions

         The embassy has 19 language-designated positions. Seven are designated at the 2/2
speaking/reading proficiency level, and 12 are designated at 3/3. The Czech education system
provides nearly universal English-language instruction at most public schools, and English is far
more widely understood than in the years prior to the fall of communism. As a result, the need
for Czech language to conduct diplomatic operations has diminished. According to 13 FAM 221
b., foreign language proficiency should be essential to performing job duties rather than merely
useful in order for a position to be language designated. In interviews with American
employees, the OIG team found that language training for the following positions did not serve
an essential purpose: the management officer (position number 50007001), political/economic
officer (position number 14004002), and deputy chief of mission (position number 00001038).
Removing the language designations from these positions would result in substantial cost savings
to the U.S. Government.

Recommendation 6: The Bureau of Human Resources, in coordination with Embassy Prague,
should update its list of language-designated positions to eliminate language designations from
position numbers 50007001, 140004002, and 00001038. (Action: DGHR, in coordination with
Embassy Prague)

        The political/economic section has five language-designated positions. Three officers
have received Department training to the 3/3 level. Although the section has two strong linguists
with prior regional experience, most officers said that they did not feel competent to use their
Czech in meetings with local officials and civil society. Entry-level officers assigned to the
consular section receive language training up to the 2/2 level. Immediately upon their arrival,
they are expected to interview applicants in Czech, which is challenging. The rotational
                                         16
                             SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

consular/political position now arrives in April, so if more language training were required it
could have an impact on embassy operations due to extended training and later arrival of the
rotational officer.

Embassy Duty Program

       The embassy duty book does not contain comprehensive information on all types of after-
hours emergencies, including information about official visitors, emergency flight clearance
procedures, and extradition or provisional arrest warrant procedures. The duty officer roster is
comprehensive and includes most officers at post, including section chiefs and heads of other
agencies. However, there is no information in the duty book concerning other offices or
agencies, such as the Department of Defense.

       Informal Recommendation 10: Embassy Prague should update its duty book to
       incorporate guidance from other mission agencies and sections.

Equal Employment Opportunity

        Embassy Prague has a comprehensive program to promote the Equal Employment
Opportunity (EEO) Program and Federal Women’s Program. Respondents to OIG’s
questionnaires gave high scores to the executive office for sensitivity to EEO issues. The
appropriate framework for an effective EEO program is in place, and the embassy has three
trained EEO counselors, an EEO liaison for the LE staff, and a Federal Women’s Program
coordinator. The embassy SharePoint site features information, policies, and links regarding
EEO issues. American and LE staff members have received sexual harassment and diversity
training.

Allowances

         Embassy Prague is delinquent in submitting the biennial survey of retail prices and hotel
rates. The embassy last submitted this survey in 2008, and the survey is 2 years overdue. The
retail price survey is essential to maintain accurate hotel per diem and post allowance rates. In
the absence of current information on retail and hotel prices, the U.S. Government may be
paying hotel costs and the post allowance at a rate higher than warranted by actual
circumstances.

Recommendation 7: Embassy Prague should prepare and submit the biennial retail price
survey to the Office of Allowances. (Action: Embassy Prague)

        The embassy is also delinquent in submitting its living pattern survey, a detailed survey
that indicates where embassy personnel shop for goods and services. The embassy last submitted
this survey in 2005, and this survey also is several years overdue. Embassy management
attempted to complete the required living pattern analysis in January 2012, but it obtained
responses from only 33 of the 65 U.S. direct-hire staff, a percentage lower than required by
regulations. In the absence of complete information about the shopping patterns for embassy
personnel, including such factors as the availability of military commissary options, the post
allowance rate may not accurately reflect actual living costs.
                                          17
                              SENSITIVE BUT UNCLASSIFIED
                               SENSITIVE BUT UNCLASSIFIED



Recommendation 8: Embassy Prague should complete its living pattern survey and submit
results to the Office of Allowances. (Action: Embassy Prague)

General Services

        The general services officer is an entry-level officer serving in his first management
assignment. The embassy community is pleased with the quality of services provided by the
general services office. Scores on the OIG workplace and quality of life questionnaires were at or
above average, with the travel and motor pool sections receiving high scores. These scores are
notable in light of the office’s heavy workload over the past year. Among other projects, the
general services office prepared for the renovation of the chief of mission residence, coordinated
with the OBO cultural heritage office and contracted out for storage and repair of numerous
cultural heritage objects, leased temporary residences for the DCM and political/economic
section chief, and moved the Ambassador and his family into the temporary chief of mission
residence—all within the first few months of the general services officer’s arrival. The OIG team
reviewed housing, shipping, motor pool, and property management operations and found them to
be in good order.

Procurement and Contracting

        Now that the chief of mission residence renovation has moved into the construction
phase, the general services officer can focus his attention on internal procedures and controls,
including those in the procurement unit. Embassy Prague uses contractors to supplement the
maintenance workforce, and the procurement section thus manages a large number of facilities
contracts and purchase orders. The embassy has had difficulty overseeing contracts because of a
staffing gap in the senior facilities LE staff member position. The inspectors noted deficiencies
in purchase order documentation. Lapses included a lack of documented competition and key
contract clauses. The unit also had to ratify an unauthorized commitment to perform work that
was not included in the original contract scope of work. In addition, although staff members have
received training as contracting officer’s representatives and a followup presentation on contract
administration, they have not consistently provided contract oversight, to include required
trafficking-in-persons monitoring provisions.

       Informal Recommendation 11: Embassy Prague should develop individual training and
       development plans for locally employed staff members with construction contracting
       responsibilities, to include trafficking-in-persons monitoring requirements.

Official Visitor Support

        Embassy Prague supported more than 1,100 official visitors in FY 2011. The embassy
has several policies regarding official visitors, but does not have a consolidated official visitor
handbook. The responsibility for providing control officers has defaulted to the
political/economic section and is not shared with other sections. Although embassy policy
requires reimbursement of official visit support costs to ICASS, the embassy does not always
collect information on visit costs. Compiling a visitor handbook, as described in 2 FAM 116,

                                           18
                               SENSITIVE BUT UNCLASSIFIED
                               SENSITIVE BUT UNCLASSIFIED

would enable the mission to improve cost recovery procedures and create a control officer roster
to include officers from other embassy sections.

       Informal Recommendation 12: Embassy Prague should create a visitor support
       handbook that includes all policies and procedures.

Charges for Use of Transient Apartments

        Embassy Prague maintains apartments for temporary duty visitors, including one on the
upper floor of the chief of mission residence, and another in a leased building. Both are operated
with OBO approval, but the embassy policy exempts most occupants, for example, interns and
U.S. Government employees on language immersion trips, from any charges. Per 15 FAM 249.2,
the embassy should charge for all use of transient apartments and credit OBO’s account with net
proceeds.

Recommendation 9: Embassy Prague should amend the temporary duty housing policy to
include an appropriate fee schedule for occupants of transient apartments. (Action: Embassy
Prague)

Property Management

         The property management unit recently implemented the Integrated Logistics
Management System application to track personal property. The staff received training during
the implementation phase but have yet to gain the required degree of proficiency to make full use
of the system. As a result, the unit had difficulty completing the required annual property
reconciliation. In addition, the local staff was not able to prepare property asset reports to
facilitate spot checks of accountable property.

       Informal Recommendation 13: Embassy Prague should provide additional training for
       staff using the Integrated Logistics Management System asset management software.

        The shipping and customs section effectively manages the processes for shipments and
registration of vehicles. The office maintains files going back 10 years, including correspondence
from potential vendors with whom they have never contracted. The standard disposition schedule
for management operations files calls for destruction after 5 years. Many of the files could be
scanned and saved electronically, reducing the space needed for storage.

       Informal Recommendation 14: Embassy Prague should reduce its holdings of shipping
       files to include only those required for current needs.

       The motor pool staff does not differentiate between other authorized use and official
business travel in its official vehicle travel records. It has thus been unable to charge for other
authorized use as required under 14 FAM 433.4 and in the embassy’s motor vehicle policy.

Recommendation 10: Embassy Prague should collect applicable fees for other authorized use of
U.S. Government vehicles. (Action: Embassy Prague)

                                           19
                               SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

        Motor pool chauffeurs prepare daily vehicle condition checks and turn them into the
motor pool supervisor with trip records, but the drivers of vehicles outside the motor pool do not
complete these records, as required by 14 FAM 436.1. The lack of daily inspection records for
all vehicles could allow damage to vehicles to go undetected.

       Informal Recommendation 15: Embassy Prague should require all drivers of U.S.
       Government-owned vehicles to prepare daily vehicle condition checks.

Facilities Management

        The facilities manager and staff have one of the most demanding and important
responsibilities in the mission—the care and maintenance of the 16th century buildings that
make up the embassy chancery, the large chief of mission residence compound, and 19 U.S.
Government-owned staff residences. Even with such demands, recent customer feedback
indicates that the mission community is relatively satisfied with the quality of maintenance
operations. Scores for maintenance services were higher than the average scores for embassies
that OIG has recently inspected.

       The facilities manager supervises a cadre of skilled laborers. The facilities manager is
attempting to enhance the skills of his staff by recruiting a new LE staff facilities supervisor and
contracting the services of a local architect to assist with construction projects.

Barrier-Free Accessibility Issues

        The embassy is not accessible to employees and members of the public with disabilities,
in part because of the age of the building and its physical layout. The facilities staff recently
completed a project to make the health unit fully accessible for an employee with physical
disabilities, but the majority of offices throughout the embassy, including the human resources
office, do not comply with accessibility standards. The inspection team witnessed employees
carrying a disabled colleague up two flights of stairs to reach a site that is frequently used for
embassy events. Public visitors face significant accessibility barriers, particularly in the consular
section, which can only be reached by stairs. The consular staff must therefore provide services
to disabled individuals in the embassy’s entrance.

        An independent firm conducted a barrier-free accessibility study in August 2010 and
identified a number of deficiencies. The proposal to bring the embassy up to the standards of the
Americans with Disabilities Act would cost an estimated $7 million. The mission has broken out
some smaller projects to improve the conditions, including the renovation of the health unit and a
$2 million project for accessibility to the consular section that is tentatively scheduled for 2015.
The current facilities manager does not have a copy of the accessibility study results to use to
identify other manageable projects to improve accessibility in the chancery.

Recommendation 11: Embassy Prague, in coordination with the Bureau of Overseas Buildings
Operations, should develop a feasible action plan based upon the results of the 2010 accessibility
study. (Action: Embassy Prague, in coordination with OBO)


                                          20
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED


Heritage Property

        The embassy maintains a large collection of cultural heritage furniture and artwork. A
number of these pieces are used in public spaces within the chancery. In some cases, high-value
heritage furniture in the public areas of the chancery may be exposed to damage or heavy wear.
Embassy Prague has sought the specific guidance of the Department’s curatorial services
program staff concerning the placement, routine care, activities to monitor the environment, and
moving and storage of antiques, works of art, and other cultural heritage objects. Proper storage
and conservation of these valuable pieces of furniture requires assistance from the Department’s
regional conservation expert.

       Informal Recommendation 16: Embassy Prague should consult with Embassy London’s
       cultural heritage manager to develop a plan to conserve heritage property in the public
       areas of the chancery.

Historic Preservation

        The chief of mission residence is undergoing a major rehabilitation project to replace and
upgrade the plumbing, electrical, and heating systems at a cost of approximately $5.8 million.
The embassy is using the project as an opportunity to rehabilitate and protect heritage furniture
within the residence as well as the decorative wood paneling in a number of rooms. With the
furniture and all appliances removed, the contractor has uncovered significant damage to walls
and windows caused by water penetration and deterioration. None of the current construction
plans include any measures to address such damage. OBO noted that it is aware of the need to
undertake repairs and is willing to assist, depending on availability of funds. Failure to address
these problems while the residence is vacant and open to construction will only make the
necessary repairs more expensive and difficult to resolve in the future.

Recommendation 12: Embassy Prague should inspect the chief of mission residence and
prepare a summary report that includes all necessary repairs, and include this report in the annual
inspection survey results for the Bureau of Overseas Buildings Operations. (Action: Embassy
Prague)

Safety, Health, and Environmental Management

        The facilities manager, in his role as post occupational safety and health officer, is
revitalizing the safety, health, and environmental management program. The post occupational
safety, health, and environmental management committee includes required members, but none
from non-Department agencies. Guidance in 15 FAM 933.2 c. encourages embassies to include
representatives from other agencies on the committee. In light of the number of other agencies
hosted by the embassy and the particular occupational safety issues of the chancery, Embassy
Prague would benefit from more diverse committee membership.

Recommendation 13: Embassy Prague should include representatives from non-Department of
State agencies on the post occupational safety, health, and environmental management
committee. (Action: Embassy Prague)

                                          21
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

         The inspection team noted a number of safety issues that require remediation by the
facilities staff, as noted in the following recommendations. The embassy has also experienced
two recent fires. An OBO fire inspector recently reviewed safety procedures in the chancery and
embassy residences during the OIG inspection and identified several issues that require
corrective actions. OBO had scheduled a safety assessment during early 2012 but canceled the
visit. A safety assessment would significantly assist the post occupational safety and health
officer in prioritizing corrective actions for safety and health problems.

Recommendation 14: The Bureau of Overseas Buildings Operations should reschedule a visit
from safety, health, and environmental management program personnel to Embassy Prague.
(Action: OBO)

        The carpentry shop, located in a converted carriage house on the first floor of the
chancery, does not meet Department safety standards. The most significant deficiency, and most
difficult to remedy, is the lack of ventilation to disperse sawdust particulates. The shop also lacks
sufficient space. The facilities manager identified a prospective new location for the carpentry
shop that would accommodate the appropriate safety equipment and provide sufficient space to
carry out larger projects.

Recommendation 15: Embassy Prague should develop a proposal to construct a new carpentry
shop for the chancery and submit it to the Bureau of Overseas Buildings Operations for review
and approval. (Action: Embassy Prague)

       The outdoor swimming pool at the chief of mission residence compound is open to the
mission community. The pool features the necessary safety equipment, but the chain link fence
has handholds and footholds that allow children to climb the fence and gain entry to the pool. In
addition, the two access gates swing inward to the pool, which is a safety hazard. The pool is
located next to the playground and employee association preschool, which increases the risk.

Recommendation 16: Embassy Prague should correct the deficiencies with the fence and gates
that allow unauthorized access to the chief of mission residence swimming pool. (Action:
Embassy Prague)

        The embassy has not inspected the employee association preschool playground to
determine whether the playground meets safety standards. The most obvious deficiency is the
lack of sufficient ground covering to prevent serious injury if children fall from the equipment.
The Bureau of Overseas Buildings Operations strongly encourages embassies to follow safety
standards contained in the Consumer Products Safety Commission’s Public Playground Safety
Handbook. In the absence of such standards, children at the center may be at risk for accidental
injury.

Recommendation 17: Embassy Prague should inspect the playground and implement a
corrective action plan to meet the Department’s standards for public playground safety. (Action:
Embassy Prague)




                                          22
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED


Information Management

        The information management office is an efficient, well-managed operation that meets
customer needs and expectations. The section received high marks on OIG questionnaires, and
the local staff recently received an honor award from the Department for outstanding ICASS
customer survey ratings over the past 5 years. Morale among LE staff members is quite high, and
most have remained with the embassy for several years. The staff has received regular formal
training as well as internal crosstraining, and all employees are capable of filling in for absent
colleagues.

         The OIG team interviewed all information management employees, inspected their
facilities, reviewed classified and unclassified computer systems as well as mail and pouch
operations, and examined the inventories and operations of the telephone, radio, and BlackBerry
programs. Internal controls are solid, and the section complies with all standard operating
practices. All recommendations from a 2012 Bureau of Information Resource Management team
assessment of computer security have been closed. The OIG team noted one minor deficiency—
missing labels on the power-off switch and computers—but this deficiency was corrected during
the inspection. The classified annex to this report contains recommendations concerning physical
security and pouch operations, which represent the greatest challenge for the information
management team.

        The information management section has implemented a state-of-the-art, collaborative
SharePoint site that provides a forum where mission staff can obtain useful information
concerning embassy events, reference materials, links to other sites, and a range of management
instructions, notices, and forms for obtaining services. Given the physical separation of offices in
the chancery, this site has greatly enhanced the communication and interaction within the
mission.

       The SharePoint site’s content must be regularly reviewed and updated to maximize its
usefulness. Every section or office has a designated SharePoint content editor responsible for
updating the site, but some sites do not work while others contain outdated or duplicative
information. The OIG team discussed this issue with several embassy sections.




                                          23
                              SENSITIVE BUT UNCLASSIFIED
                                   SENSITIVE BUT UNCLASSIFIED


   Quality of Life
           Morale among the American staff and family members is excellent. Services such as
   medical care and schools are highly regarded by most respondents, who also cite the culture and
   amenities of Prague as a major factor in their high morale. As noted earlier, however, morale
   among the LE staff has suffered from a long-term salary stagnation that predates the recent
   freeze in wages for all U.S. Government employees.

   Community Liaison Office

            Embassy Prague has two half-time community liaison office coordinators, both of whom
   have training and prior experience as coordinators at other embassies. They face some challenges
   in creating a sense of community, such as the lack of a common gathering space in the chancery
   and competing alternatives to embassy-sponsored community events. Despite these factors, the
   coordinators function well. Average scores on the OIG survey were higher than those from other
   recently inspected embassies.

   Medical Unit

           Embassy Prague’s medical unit provides primary medical care to American employees
   and family members and limited emergency services to local staff members. There are no serious
   health hazards in the Czech Republic, and the local medical infrastructure is adequate, although
   embassy staff often require medical unit assistance to communicate with local medical providers.
   The mission community gave very high marks on the OIG questionnaires for overall quality of
   medical services. The average score on the 2012 ICASS customer satisfaction survey indicates a
   similar degree of satisfaction with the health unit.
(b)(5)(b)(6)

               (b)(5)(b)(6)                   offers a full program of educational instruction that
   meets U.S. educational accreditation standards (b)(5)(b)(6)                             The
   school received high scores on OIG’s customer service questionnaires and from the Office of
                                                                   (b)(5)(b)(6)

   Overseas Schools in its most recent evaluation. Approximately dependents of official
   Americans attend the school.

           Until 2008, the school operated as a nonprofit entity sponsored by the U.S. Government.
   The school incorporated in 2008 as a nonprofit entity under Czech law. As part of the change in
   the school’s status, it instituted a number of administrative changes, such as reporting income tax
   for school employees to the local tax authorities. Nevertheless, three motor vehicles are still
   registered in the name of the embassy even though they are used by the school and were
   procured solely using school funds.

               Informal Recommendation 17: Embassy Prague should transfer registration of the three
               vehicles that are used by the school from the U.S. Government to (b)(5)(b)(6)



                                               24
                                   SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED


American Embassy Prague Community Association

         Embassy Prague’s recreation association operates a commissary, day care center, and
temporary duty hotel apartments. In the past year, the association has experienced considerable
personnel turmoil. The recently hired manager is the association’s third manager in a year.
Partly as a result, the association is in a state of transition as the board and new manager review
operations and make necessary adjustments. The association closed its cafeteria to stem
operating losses and instituted a policy to prohibit nondiplomatic personnel from purchasing
packaged duty-free items, an essential internal controls practice. The association’s financial
stability is still in question, as the 2011 financial statements and required audit have not yet been
completed. In view of the personnel turnover and internal controls vulnerabilities, a visit from
the Office of Commissary and Recreation Affairs could stabilize operations.

Recommendation 18: The Bureau of Administration should send staff from the Office of
Commissary and Recreation Affairs to provide an assistance visit to the American Embassy
Prague Community Association. (Action: A)




                                          25
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED


Management Controls
        The OIG team reviewed the effectiveness of management controls, including recent
internal and external assessments, and concluded that the structure and processes for an effective
set of management controls are present. The management officer is the management controls
officer, and he consults regularly with the DCM and other management staff regarding internal
controls. The designation of responsibilities roster is current. Embassy Prague submitted the
required 2011 chief of mission statement of management controls assurance to the Department,
citing two significant deficiencies: (b) (5)
and a lack of access for disabled employees and members of the public.

Consular Management Controls

        Only one of the three consular officers is a tenured officer, which means that some
accountable consular officer duties fall to untenured officers. Appropriate designations and
transfers of authority are in place. Inventories are updated, storage of controlled items is
appropriate, and spoiled visa foils are destroyed weekly and accounted for electronically. As
referred to earlier in this report, the consular section has two cashiering operations and two
locking cashier booths, one in the American citizens services unit and the other in the
nonimmigrant visa unit. Four of the seven full-time LE staff members in the consular section
serve either as consular subcashier or as backup subcashier, which is unusual.

American Embassy Prague Community Association

Financial Reporting Requirements

        Embassy Prague’s recreation association is not in compliance with several essential
financial management internal controls responsibilities. The association is 7 months behind
schedule in submitting monthly financial statements to the board of directors, has not submitted
semiannual financial statements to the Office of Commissary and Recreation Affairs, and has not
conducted the 2011 financial statement audit required by 6 FAM 557 b. Turnover in association
management contributed to delays in preparing and submitting required financial reports. In the
absence of proper financial internal controls and audited financial statements, the association
does not have assurances that its operations are financially stable and that its financial statements
are free of material misstatements.

Recommendation 19: Embassy Prague should bring the American Embassy Prague Community
Association into compliance with required commissary and recreation financial reporting and
audit requirements. (Action: Embassy Prague)

Child Care Center

       Embassy Prague’s recreation association operates a child care center (b)(5)(b)(6)
                               Under the association’s charter, services and facilities may be
provided to employees of all agencies and their eligible family members who are stationed and
supported at the embassy. However, only 2 of 13 children who are clients of the child care center

                                          26
                              SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED

are affiliated with the American embassy. The other clients are children of Czech citizens and
third-country nationals who do not have official ties to the embassy. For summer camp
programs, only 6 of 22 students are affiliated with the embassy. The provision of services to
nondiplomatic personnel under the auspices of the embassy under these circumstances is likely
contrary to the association’s charter, which limits services only to the embassy community.

Recommendation 20: The Bureau of Administration should examine the operating practices of
Embassy Prague’s community association’s child care center and advise the embassy whether
these activities can be carried out under the association’s charter. (Action: A)




                                         27
                             SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED



List of Recommendations
Recommendation 1: Embassy Prague should develop a calendar process for the chief of
mission that captures, organizes, and provides limits on his schedule of events. (Action: Embassy
Prague)

Recommendation 2: The Bureau of European and Eurasian Affairs, in coordination with the
Bureau of Human Resources, should reclassify political officer position 10463022 as an entry-
level position. (Action: EUR, in coordination with DGHR)

Recommendation 3: The Bureau of European and Eurasian Affairs, in coordination with the
Bureau of Human Resources, should reclassify the information officer position (position
60888065). (Action: EUR, in coordination with DGHR)

Recommendation 4: Embassy Prague, in coordination with the Bureau of Overseas Buildings
Operations, should reconfigure the consular section to combine office space for nonimmigrant
visa, immigrant visa, and American citizens services operations into a single location. (Action:
Embassy Prague, in coordination with OBO)

Recommendation 5: Embassy Prague should institute procedures consistent with the
worldwide policy for a nonimmigrant visa embassy referral program. (Action: Embassy Prague)

Recommendation 6: The Bureau of Human Resources, in coordination with Embassy Prague,
should update its list of language-designated positions to eliminate language designations from
position numbers 50007001, 140004002, and 00001038. (Action: DGHR, in coordination with
Embassy Prague)

Recommendation 7: Embassy Prague should prepare and submit the biennial retail price
survey to the Office of Allowances. (Action: Embassy Prague)

Recommendation 8: Embassy Prague should complete its living pattern survey and submit
results to the Office of Allowances. (Action: Embassy Prague)

Recommendation 9: Embassy Prague should amend the temporary duty housing policy to
include an appropriate fee schedule for occupants of transient apartments. (Action: Embassy
Prague)

Recommendation 10: Embassy Prague should collect applicable fees for other authorized use
of U.S. Government vehicles. (Action: Embassy Prague)

Recommendation 11: Embassy Prague, in coordination with the Bureau of Overseas Buildings
Operations, should develop a feasible action plan based upon the results of the 2010 accessibility
study. (Action: Embassy Prague, in coordination with OBO)

Recommendation 12: Embassy Prague should inspect the chief of mission residence and
prepare a summary report that includes all necessary repairs, and include this report in the annual

                                          28
                              SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED

inspection survey results for the Bureau of Overseas Buildings Operations. (Action: Embassy
Prague)

Recommendation 13: Embassy Prague should include representatives from non-Department
of State agencies on the post occupational safety, health, and environmental management
committee. (Action: Embassy Prague)

Recommendation 14: The Bureau of Overseas Buildings Operations should reschedule a visit
from safety, health, and environmental management program personnel to Embassy Prague.
(Action: OBO)

Recommendation 15: Embassy Prague should develop a proposal to construct a new carpentry
shop for the chancery and submit it to the Bureau of Overseas Buildings Operations for review
and approval. (Action: Embassy Prague)

Recommendation 16: Embassy Prague should correct the deficiencies with the fence and
gates that allow unauthorized access to the chief of mission residence swimming pool. (Action:
Embassy Prague)

Recommendation 17: Embassy Prague should inspect the playground and implement a
corrective action plan to meet the Department’s standards for public playground safety. (Action:
Embassy Prague)

Recommendation 18: The Bureau of Administration should send staff from the Office of
Commissary and Recreation Affairs to provide an assistance visit to the American Embassy
Prague Community Association. (Action: A)

Recommendation 19: Embassy Prague should bring the American Embassy Prague
Community Association into compliance with required commissary and recreation financial
reporting and audit requirements. (Action: Embassy Prague)

Recommendation 20: The Bureau of Administration should examine the operating practices
of Embassy Prague’s community association’s child care center and advise the embassy whether
these activities can be carried out under the association’s charter. (Action: A)




                                         29
                             SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED


List of Informal Recommendations
        Informal recommendations cover operational matters not requiring action by
organizations outside the inspected unit and/or the parent regional bureau. Informal
recommendations will not be subject to the OIG compliance process. However, any subsequent
OIG inspection or on-site compliance review will assess the mission’s progress in implementing
the informal recommendations.

Informal Recommendation 1: Embassy Prague should restructure political/economic staff
meetings to serve as tasking meetings and venues for exchange of action-oriented information.

Informal Recommendation 2: Embassy Prague should develop and implement annual
reporting, travel, and representation plans.

Informal Recommendation 3: Embassy Prague should streamline its processes to allow the
written press summary to be delivered to all embassy recipients no later than 10 a.m. local time.

Informal Recommendation 4: Embassy Prague should redesign its social media sites in a way
that links relevant sites together.

Informal Recommendation 5: Embassy Prague should post a disclaimer about advertising
appearing near the Ambassador’s blog on the private Czech Web site.

Informal Recommendation 6: Embassy Prague should revise the grants application to make
clearer how the proposed activity accords with mission goals.

Informal Recommendation 7: Embassy Prague should provide appropriate training for
additional locally employed staff members with grants management responsibilities.

Informal Recommendation 8: Embassy Prague should prepare consular materials for a mass
casualty emergency situation affecting American citizens in the Czech Republic.

Informal Recommendation 9: Embassy Prague should establish an International Cooperative
Administrative Support Services budget subcommittee that consists of working-level
representatives from both the service provider and the serviced agencies.

Informal Recommendation 10: Embassy Prague should update its duty book to incorporate
guidance from other mission agencies and sections.

Informal Recommendation 11: Embassy Prague should develop individual training and
development plans for locally employed staff members with construction contracting
responsibilities, to include trafficking-in-persons monitoring requirements.

Informal Recommendation 12: Embassy Prague should create a visitor support handbook that
includes all policies and procedures.

Informal Recommendation 13: Embassy Prague should provide additional training for staff
using the Integrated Logistics Management System asset management software.
                                         30
                             SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED

Informal Recommendation 14: Embassy Prague should reduce its holdings of shipping files to
include only those required for current needs.

Informal Recommendation 15: Embassy Prague should require all drivers of U.S.
Government-owned vehicles to prepare daily vehicle condition checks.

Informal Recommendation 16: Embassy Prague should consult with Embassy London’s
cultural heritage manager to develop a plan to conserve heritage property in the public areas of
the chancery.

Informal Recommendation 17: Embassy Prague should transfer registration of the three
vehicles that are used by the school from the U.S. Government to (b)(5)(b)(6)




                                         31
                             SENSITIVE BUT UNCLASSIFIED
                         SENSITIVE BUT UNCLASSIFIED


Principal Officials
                                                          Name       Arrival Date
Ambassador                                         Norman Eisen              1/11
Deputy Chief of Mission                        Joseph Pennington             8/10
Chiefs of Sections:
 Management                                      Benjamin Dille              8/08
 Consular                                            David Beam              8/09
 Political-Economic                            William Silkworth             8/11
 Public Affairs                               Robert Zimmerman               9/11
 Regional Security                                 Hartaje Thiara            9/11
Other Agencies:
 Department of Defense
   Defense Attaché Office                    Col. Patrick Sullivan         12/11
   Office of Defense
   Cooperation                              Lt. Col. Marek Stobbe            2/10
   Office of Naval Research                      Michael Morgan              7/10
 Foreign Commercial Service                          Stuart Schaag           8/10
 International Broadcasting                                                  9/04
 Bureau                                            Adam Gartner
 Federal Bureau of
 Investigation                                       Paul Haertel            8/11




                                     32
                         SENSITIVE BUT UNCLASSIFIED
                SENSITIVE BUT UNCLASSIFIED


Abbreviations
DCM             Deputy chief of mission

Department      U.S. Department of State

EEO             Equal Employment Opportunity

ICASS           International Cooperative Administrative Support Services

LE              Locally employed

NATO            North Atlantic Treaty Organization

OBO             Bureau of Overseas Buildings Operations

OIG             Office of Inspector General

PAS             Public affairs section




                            33
                SENSITIVE BUT UNCLASSIFIED
              SENSITIVE BUT UNCLASSIFIED
   SENSITIVE BUT UNCLASSIFIED




FRAUD, WASTE, ABUSE,
OR MISMANAGEMENT
of Federal programs hurts everyone.




           Contact the
   Office of Inspector General
          HOTLINE
to report illegal or wasteful activities:



             202-647-3320
             800-409-9926


         oighotline@state.gov


             oig.state.gov


      Office of Inspector General
       U.S. Department of State
            P.O. Box 9778
        Arlington, VA 22219




   SENSITIVE BUT UNCLASSIFIED
